No. 20-7125

In the Supreme Court of the United States
RASHAN WILLIAMS,
Petitioner
v.
STATE OF LOUISIANA,
Respondent.
On Petition for Writ of Certiorari
to the Supreme Court of Louisiana
PROOF OF SERVICE
Undersigned counsel certifies that, under Supreme Court Rule 29.3, the Brief
in Opposition was served on each party, or that party’s counsel, as listed below, on
June 2, 2021. Service was made by United States mail—with first-class postage
prepaid.
Rashan Williams
#422041
Louisiana State Penitentiary
Angola, LA 70712-9818
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 2, 2021.
/s/ Elizabeth Baker Murrill
ELIZABETH BAKER MURRILL

